                                Office of Inspector General
                               Corporation for National and
                                        Community Service




         Pre-Audit Survey of the
      Oklahoma Community Service
              Commission

         OIG Report Number 04-08
             October 3,2003




                                               Corporation for              m

                                               NATIONAL=
                                               COMMUNITY




                       Prepared by:

                       KPMG LLP
                   2001 M Street NW.
                 Washington, D.C. 20036




This report was issued to Corporation management on February 18, 2004.
Under the laws and regulations governing audit follow up, the Corporation is to
make final management decisions on the report's findings and
recommendations no later than August 18, 2004, and complete its corrective
actions by February 18, 2005. Consequently, the reported findings do not
necessarily represent the final resolution of the issues presented.
                                   Office of Inspector General
                         Corporation for National and Community Service
                                       Audit Report 04-08

          Pre-Audit Survey of Corporation for National and Community Service Grants
                                        Awarded to the
                         Oklahoma Community Service Commission

Introduction

The Corporation for National and Community Service, pursuant to the National and Community
Service Trust Act, as amended. awards grants and cooperative agreements to State commissions,
nonprofit entities, tribes, and territories to assist in the creation of full-time and part-time national
and community service programs. Currently, under the Act's requirements, the Corporation
awards approximately three-fourths of its AmeriCorps*State/National funds to State
commissions. The State commissions, in turn, fund and oversee the subgrantees that execute the
programs. Through these subgrantees, AmeriCorps members perform service to meet
educational, human, environmental, and public safety needs.

The Office of Inspector General retained KPMG LLP to perform a pre-audit survey of the
Oklahoma Community Service Commission. The objective of the pre-audit survey was to
evaluate: (1) the adequacy of the pre-award selection process; (2) the administration of grant
funds; and (3) grant monitoring. The audit period included Program Years 2000-2001 and
200 1-2002.

The Commission was awarded AmeriCorps Formula, AmeriCorps Competitive, Program
Development and Training, Education Award, and Administrative grants of approximately
$6,608,578 for Program Years 2000-2001 and 2001-2002, the period covered by the pre-audit
survey. The auditors noted that employee access to the Web Based Reporting System should be
more restricted, the Commission should improve its documentation of the work performed
during site visits and the Commission should improve its review and approval of costs charged to
grants. The auditors recommended performing limited audit procedures for Program Years
2000-2001 and 2001-2002 to address the report findings.

The Office of Inspector General has reviewed the report and the work papers supporting the
auditors' conclusions. Our review of the auditors' work papers disclosed no instances where
KPMG LLP did not comply, in all material respects, with generally accepted government
auditing standards.

The Office of Inspector General provided the Oklahoma Community Service Commission and
the Corporation with a draft of this report for their review and comment. Their responses are
included in their entirety as Appendices C and D, respectively.
                                            Pre-Audit Survey of the
                                    Oklahoma Community Service Commission
                                               Table of Contents




RESULTS IN BRIEF ......................................................................................................................   1

BACKGROUND ............................................................................................................................. 2

OVERVIEW OF THE OKLAHOMA COMMISSION .................................................................. 3

OBJECTIVES, SCOPE, AND METHODOLOGY .........................................................................3

FINDINGS AND RECOMMENDATIONS .................................................................................... 5

APPENDIX A - COMMISSION FUNDING: FOR PROGRAM YEARS
200 1 AND 2002 ................... .................................... . ... .. .. . . . . . . . . .. . .... .... . .. . A. 1

APPENDIX B - DETAILED ENGAGEMENT OBJECTTVES AND
METHODOLOGY .....................................................................................................................
                                                                                                                             B. 1

APPENDIX C - OKLAHOMA COMMUNITY SERVICE COMMISSION RESPONSE ........ C.l

APPENDIX D - CORPORATION RESPONSE ........................................................................ D. 1
             KPMG LLP
             2001 M Street. NW
             Washmgton, DC 20036




October 3, 2003



Inspector General
Corporation for National and Community Service


At your request: KPMG LLP (KPMG) performed a pre-audit survey of the Oklahoma Community
Service Commission (Commission) on Corporation for National and Community Service
(Corporation) funds received by the Commission for Program Years 2000-2001 and 2001-2002.
The primary purpose of this survey was to provide a preliminary assessment o f

   the adequacy of the Commission's pre-award selection process;
   the procedures at the Commission for the fiscal administration of Corporation grants; and
   the effectiveness of the Commission's procedures for monitoring subgrantees.

We were also to report on the recommended scope of additional audit procedures to be performed
at the Commission.

Results in Brief

Based on the results of the limited procedures performed, we have made the following preliminary
assessments regarding the Commission's systems for administering Amencorps grants:

    The Commission administers an open, competitive process to select national service
    subgrantees.

    The Commission has developed adequate policies and procedures to administer the
    Corporation's grant funds. However, we noted that employee access rights to the Web Based
    Reporting System (WBRS) should be more effectively restricted. Additionally, we identified
    $4,070 of potentially questioned costs for membership fees paid to a lobbying organization
    that were charged to the Administrative grant, and $6,652 claimed as matching costs to the
    Administrative grant for unallocable and potentially unallowable costs.

    The Commission has established controls to evaluate and monitor subgrantees. However, the
    Commission should improve its process for documenting the work performed during visits to
    subgrantee operating sites.
The section of this report entitled "Findings and Recommendations" describes the weaknesses
noted above in further detail, makes recommendations for corrective actions, and addresses
additional issues noted during the survey.

The Commission is a nonprofit organization, and is annually subject to an OMB Circular A-1 33,
Audits of State, Local Governnzents, and Non-Profit Organizations audit. The auditors identified
the Commission's AmeriCorps grants as a major program and reported no findings.

Based on our preliminary assessments and the nature of our findings, we recommend the
performance of limited audit procedures to address the findings related to grant administration and
subgrantee monitoring.

Additionally, we recommend that the Corporation follow up with the Commission to determine
that appropriate corrective actions are implemented to address the conditions reported herein, and
that the Corporation consider these conditions in its oversight and monitoring of the Commission.

Background

The National and Community Service Trust Act of 1993, Pub. L. No. 103-82, which amended the
National and Community Service Act of 1990, established the Corporation for National and
Community Service.

The Corporation, pursuant to the authority of the Act, awards grants and cooperative agreements
to State commissions, nonprofit entities, tribes and territories to assist in the creation of full-time
and part-time national and community service programs. Through these grantees, AmeriCorps
members perfom service to meet educational, human, environmental and public safety needs
throughout the Nation, especially addressing those needs related to poverty. In return for this
service, eligible members may receive a living allowance and post-service educational benefits.

Currently, the Corporation awards approximately three-fourths of its AmeriCorps State/National
funds to State commissions. State commissions are required to include 15 to 25 voting members.
Each commission has a responsibility to develop and communicate a vision and ethic of service
throughout its State.

The commissions provide AmeriCorps funding to approved applicants for service programs within
their States and are responsible for monitoring subgrantees' compliance with grant requirements.
Commissions are also responsible for providing training and technical assistance to AmeriCorps
State and National programs that receive grants directly from the Corporation, and to the broader
network of service programs in the State. Commissions are prohibited from directly operating
national service programs.

The Corporation's regulations describe standards for financial management systems that must be
maintained by State commissions. The standards require, in part, that the commissions maintain
internal controls that provide for accurate, current, and complete disclosure of the financial and
programmatic results of financially assisted activities. The commissions must also provide
effective control and accountability for all grant and subgrant cash, real and personal property, and
other assets.
Overview of the Oklahoma Commission

The Oklahoma Community Service Commission, located in Oklahoma City, Oklahoma, has
received AmeriCorps grant funds from the Corporation since its inception in 1994. The
Commission operates as a nonprofit entity and employs four full-time personnel: an Executive
Director, an Assistant Director, an Administrative Assistant, and a Community Coordinator.

The Commission provided the following information for program years 2000-2001 and
2001- 2002:

                                                                           Number of
                                                                           Subgrantees
                             Total Corporation         Number of         Subject to A-1 33
        Program Year              Funding              Subgrantees           Audits*




* This determination is based solely on the dollar value of Federal awards passed through the
    Commission for each program year. Remaining subgrantees could be subject to an OMB
    Circular A-1 33 audit if they receive additional Federal grant funds from sources other than the
    Corporation.

Appendix A contains more detailed information on funding received from the Corporation during
program years 2000-200 1 and 200 1-2002.

Objectives, Scope, and Methodology

We were engaged by the Office of Inspector General, Corporation for National and Community
Service, to provide an assessment of the systems and procedures in place at the Commission for
administering AmeriCorps grants and for monitoring the fiscal activity of subgrantees. The
primary purpose of this pre-audit survey is to provide a preliminary assessment of:

    the adequacy of the Commission's pre-award selection process;
    the procedures used by the Commission for the fiscal administration of Corporation grants;
    and
    the effectiveness of the Commission's procedures for monitoring subgrantees.

We also reported on the recommended scope of additional audit procedures to be performed at the
Commission.

Our survey included the following procedures:

    reviewing applicable laws, regulations, grant provisions, the Corporation's State
    Administrative Standards Tool, and other information to gain an understanding of legal and
    programmatic requirements;

    reviewing OMB Circular A-133 reports and current program year grant agreements for the
    Commission;
   obtaining information from Commission management to complete flowcharts documenting the
   hierarchy of AmeriCorps grant funding for Program Years 2000-200 1 and 200 1-2002; and

   performing procedures to achieve the objectives, detailed in Appendix B, to assess the
   Commission's internal controls, selection of subgrantees, administration of grant funds, and
   monitoring of subgrantees, including internal controls over reporting service hours and
   performance accomplishments.

As part of the procedures performed, we documented and tested internal controls in place at the
Commission by utilizing inquiries, observations, and examinations of a limited sample of source
documents. Finally, we summarized the results of our work to develop the findings and
recommendations presented in this report. We discussed all findings with Commission
management during an exit conference on October 3, 2003.

Our procedures were performed in accordance with Government Auditing Standurds issued by the
Comptroller General of the United States. We were not engaged to, and did not, perform an audit
of any financial statements, and the procedures described above were not sufficient to express an
opinion on the controls at the Commission, or on its compliance with applicable laws, regulations,
contracts, and grants. Accordingly, we do not express an opinion on any such financial statements
or on the Commission's controls or compliance. Had we performed additional procedures, other
matters might have come to our attention that would have been reported.

We provided a draft of this report to the Commission and the Corporation. Responses to our
findings and recommendations by the Commission and the Corporation are included as
Appendices C and D, respectively.
Findings and Recommendations

Selecting Subgrantees

According to 45 CFR 5 2550.80(b) (l), "[elach State must administer a competitive process to
select national service programs to be included in any application to the Corporation for funding."

The Commission administers an open, competitive process to select national service subgrantees.
The Commission advertises funding availability through mailing lists, newspaper announcements
and newsletters. In addition, selection officials sign conflict of interest statements annually,
receive an instruction package, and use a standard form to evaluate each applicant.

Admiriistering Grant Fitnds

As part of the grant administration process, "[glrantees are responsible for managmg the day-to-
day operations of grant and subgrant supported activities. Grantees must monitor grant and
subgrant supported activities to assure compliance with applicable federal requirements and that
performance goals are being achieved. Grantee monitoring must cover each program, function or
activity." See 45 CFR 5 254 1.4OO(a).

The Commission has developed and implemented procedures that are intended to provide
reasonable assurance that grant funds received from the Corporation are properly administered.
Procedures are in place to withhold funding payments if subgrantees do not submit Financial
Status Reports in a timely manner, to manage cash draw downs and disbursements to subgrantees,
and ascertain whether subgrantees have met their matching requirements. The Commission's
personnel have adequate skills and experience managing and administering Corporation grant
funds. However, we identified the following areas for improvement within the grant
administration process:

        Web Based Reporting System User Access Rights

The Commission uses the Corporation's Web Based Reporting System (WBRS) for reporting
financial and program reports. The Commission, along with the Corporation, has established a set
of controls for using WBRS by Commission staff and subgrantees. Most of these controls are
embedded in the system, such as automated calculation of costs in Financial Status Reports,
tracking of AmeriCorps members' hours, and automated carry-forward of financial and reporting
data from prior periods. Each staff member at the Oklahoma Commission gains access to WBRS
through the Executive Director (ED) level of authority, which provides them with complete user
capabilities. Two of the four staff members also have access to subgrantee screens because they
have alternate user names for the purpose of establishing themselves as Program Director (PD)
users, in addition to ED users. The PD level of authority allows the user to create, modify, or
delete progress reports, periodic expense reports, and financial status reports at the subgrantee
level. The integrity of the reporting process through WBRS could be compromised by users
gaining access to levels of authority beyond their employee profiles.

Recommendation

We recommend that the Commission develop and implement control procedures to restrict the
level of access authority granted to the different users of WBRS, as appropriate.
Questioned Costs

The following costs were questioned or issues were raised about the costs below:

       Membership Fees Paid to the Atnerican Associution o f State Service Comtnission~

The Commission claimed membership fees paid to the American Association of State Service
Commissions (ASC) totaling $4,070 ($2,305 in each Program Year) as an Administrative grant
cost in February 2001 and February 2002. Since ASC participates in lobbying on behalf of
commissions nationwide, such membership costs do not meet the criteria for allowable costs under
OMB Circular A-122, Cost Principles for Non-Profit Organizations (the Circular). Attachment B,
Section 25(a)(3)-(4) of the Circular defines unallowable lobbying activities as follows:

         (3) Any attempt to influence: (i) The introduction of Federal or State legislation;
        or (ii) the enactment or modification of any pending Federal or State legislation
        through communication with any member or employee of the Congress or State
        legislature . . . or with any Government official or employee in connection with a
        decision to sign or veto enrolled legislation;
        (4) Any attempt to influence: (i) The introduction of Federal or State legislation;
        or (ii) the enactment or modification of any pending Federal or State legislation
        by preparing, distributing or using publicity or propaganda . . ..

These costs are not being questioned at this time, but may be questioned at a later date. If these
costs are determined to be questioned, this finding will be communicated in a separate document.

        Unallocable and Potentially Unallowable Costs Claiined to Administrative Grant Match
        (Questioned Match Costs o f $6,652)

The Commission claimed match costs that did not meet applicable cost principles per 45 CFR
2541.240. One transaction claimed as a match cost, in the amount of $6,118, was for books
received in May 2000. The Administrative grant under which this match cost was claimed did not
begin until January 200 1. OMB Circular A- 122, Cost Principles for Non-Profit Organizations,
Attachment A, part 4, states that a cost is allocable to a particular grant in accordance with the
relative benefits received. It is not evident that the 2001 grant received any benefits from the
books that were obtained seven months prior to the start of the grant. As such, this cost is not
allocable to the 2001 Administrative grant.

The Commission also claimed match costs in the amount of $534 for the purchase of twenty-two
bottles of wine for a conference held in Oklahoma City. OMB Circular A-122, Attachment B part
2, defines costs for alcoholic beverages as unallowable.

Recommendation

We recommend that the Commission improve the approval and recording of match costs as
follows:

    1. Develop and implement procedures to review the documentation supporting the amount of
       match, as well as the allowability of match amounts claimed.
    2. Maintain adequate documentation to support all in-kmd match amounts. Documentation
       should include detailed records of contributions received and the methodology used to
       value these contributions.

       Excessive Subgrantee Cash Advances; Interest Earned but not Remitted

One of the Commission's subgrantees requested advances exceedmg its 30-day cash need in 1 1
out of 16 months. This resulted in surplus cash and earned interest by the subgrantee. According
to 45 CFR 5 2543.22, recipients of Federal funds must minimize the time elapsing between the
transfer of funds and disbursement by the recipient. The regulation also allows only $250 of
interest earned to be retained by the recipient. The Commission calculated an estimated earned
interest income from the deposit of Corporation funds amounting to $462.

Recommendation

We recommend the Commission establish proper procedures to limit cash advance requests.
Further, interest income in excess of $250 earned on the advances should be returned to the
Corporation.

        Review of the Subgrantee Periodic Expense Reports

The Comrnlssion receives the subgrantee Periodic Expense Reports through the Web Based
Reporting System and is required to review them for accuracy prior to issuing payment. The
Commission's review, however, is not documented.



We recommend that the Commission implement procedures for ensuring that expenditure reviews
are appropriately documented.

        Lack of Written Grievance Procedures

The Commission does not have written grievance procedures for rejected grant applicants.
Written grievance procedures are required by the Corporation's AmeriCorps Provision 34(a),
requiring grantees to implement a process for filing and adjudicating grievances from members,
labor organizations and other interested parties.

        Lack of Written Procurement Procedures

The Commission does not have written procurement procedures. Federal regulations require
recipients to establish written procurement procedures. See 45 CFR 5 2543.44.

Recommendation

We recommend the Commission develop and implement written grievance and procurement
procedures.
        Lack o f Control Procedures over Property and Equipment Purchases

A Federal regulation, 45 CFR 5 2543.34, requires grant recipients that use Federal funds to
purchase equipment to maintain records that include a description of the equipment, the serial
number, the source of the equipment including award number, title vesting information, the date of
acquisition, the percentage of Federal participation in the cost of the equipment, its location and
condition, unit acquisition cost, and disposition information. The Commission has not developed
control policies and procedures to monitor and maintain property and equipment purchases made
with Federal funding. Specifically, no procedures are in place to document or maintain equipment
purchases, equipment dispositions, or equipment transfers to subgrantees.

Recommendation

We recommend that the Commission develop and implement property and equipment management
controls, including detailed property and equipment records.

Evaluating and Monitoring Subgrantees

As noted above, the Commission is responsible for monitoring subgrant-supported activities to
assure compliance with applicable Federal requirements and achievement of performance goals.
The Commission has established controls to evaluate and monitor subgrantees, which include
reviewing program and financial reports and scheduling site visits for each subgrantee during the
grant period. Commission personnel use a standard site visit report form to document the results
of each visit. The Commission notifies the subgrantees of the results of these site visits, including
findings on strengths, weaknesses, concerns, recommendations, and any necessary follow-up
requirements.

However, we identified the following area for improvement related to the evaluation and
monitoring of subgrantees:

        Operating Site Visits

The Cornmlssion has developed a monitoring process that includes not only annual visits to
subgrantees, but also site visits to subgrantee operating sites. The objectives for visiting the
operating sites and the results of the operating site visits have not been documented. As part of
the grant administration process, "[rlecipients are responsible for managing and monitoring each
project, program, subaward, function or activity supported by the award." See 45 CFR 5 2543.5 1
(a>.

Recommendation

We recommend that the Commission define the objectives for operating site visits and develop
written procedures for site visits so that proper monitoring and follow-up reporting occur.
This report is intended solely for the information and use of the Office of Inspector General, the
management of the Corporation for National and Community Service, the management of the
Oklahoma Community Service Commission, and the United States Congress, and is not intended
to be, and should not be, used by anyone other than these specified parties.
                                                                   Appendix A
                             Commission Funding




                   Corporation for National and Community Service
               Funding to the Oklahoma Community Service Commission
                               Program Year 2000-200 1




-
ArneriCorps
 Formula
                            AmeriCorps
                            Compet~tive
                                                 I
                                                   Education
                                                    Award
                                                                      Administrative
                                                                         Funds
   Funds                      Funds
 $888,546                   $1,782,840             $500.000

  Match                       Match                                      Match
 $304,452                    $686,006                                   $265,205




               Total Corporation Funds Retained by the Commission $278,533

                        Total Commission Matching Funds $265,205

               Total Corporation Funds Awarded to Sub grantees $3,171,386

                                                                             I
     *                     AmeriCorps              Educat~on
  Formula                  Compet~tive              Award                   Funds

  $888,546                 $1,782.840               $500,000            $278.533

   Match                     Match                                       Match
  $304,452                  $686,006                                    $265,205

 Total # of                 Total # of              Total # of
                                                     SUBS
                                                        I
  Total # of                Total # of              Total # of
    Sites                     Sites                   S~tes
                                                       323
                                                                  Appendix A
                           Commission Funding



                  Corporation for National and Community Service
              Funding to the Oklahoma Community Service Commission
                              Program Year 200 1-2002




AmeriCorps                 AmeriCorps           AmeriCorps
  Formula                  Compet~tive           Promise                    Funds
   Funds                      Funds              Fellows
$ 1,201,677                $ 1,504,417           $252,600               $199,965

  Match                      Match                                       Match
 $4 19.803                  $599.5 13                                   $157,177




             Total Corporation Funds Retained by the Commission $1 99,965

                     Total Commission Matching Funds $1 57,177

              Total Corporation Funds Awarded to Sub grantees $2,958,694
                                                                                 Appendix B

          Detailed Engagement Objectives and Methodology

Internal Controls

Our objective was to make a preliminary assessment of the adequacy of the Commission's
financial systems and the documentation maintained by the Commission to provide reasonable
assurance that transactions are properly recorded and accounted for to: ( I ) permit the preparation
of reliable financial statements and federal reports; (2) maintain accountability over assets; and
(3) ensure compliance with laws, regulations, and other compliance requirements.

In order to achieve the above objective, we identified the compliance requirements with a direct
and material effect on the Commission's AmeriCorps grant program as follows: activities
allowed or unallowed; allowable costs; eligibility; matching; period of availability of
Corporation funds; suspension and debarment; subrecipient monitoring; and reporting by the
Commission to the Corporation. We then interviewed key Commission personnel to assess the
Commission's controls surrounding these requirements.


Selecting Subgrantees

Our objectives were to make a preliminary assessment of:

    the adequacy of the systems and controls used by the Commission to select national service
    subgrantees to be included in an application to the Corporation;

    whether the Commission evaluated the adequacy of potential subgrantee financial systems
    and controls in place, to administer a Federal grant program prior to making the award to the
    subgrantees; and

    whether Commission involvement in the application process involved any actual or apparent
    conflict of interest.

In order to achieve the above objectives, we interviewed key Commission management personnel
and documented procedures performed by the Commission during the pre-award financial and
programmatic risk assessment of potential subgrantees. We also reviewed documentation to
determine if conflict of interest forms for each subgrantee applicant tested were signed by
selection officials annually and maintained by the Commission.

Administering Grant Funds

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls used by the
    Commission to oversee and monitor the performance and progress of funded subgrantees;
                                                                              Appendix B

   make a preliminary assessment as to whether the Commission's organizational structure,
   staffing level, and skill mix are conducive to effective grant administration;

   make a preliminary assessment as to whether the Commission provided adequate guidance to
   subgrantees related to maintenance of financial systems, records, supporting documentation,
   and reporting of subgrantee activity;

   make a preliminary assessment of the adequacy of financial systems and documentation
   maintained by the Commission to support oversight of subgrantees and required reporting to
   the Corporation (including Financial Status Reports, progress reports, enrollment and exit
   forms, and change of status forms); and

   determine whether the Commission has procedures in place to verify the accuracy and
   timeliness of submitted reports.

In order to achieve the above objectives, we reviewed accounting records, Financial Status
Reports, and progress reports submitted by subgrantees, as well as Financial Status Reports
submitted by the Commission to the Corporation, to preliminarily assess their accuracy.

Evaluating and Monitoring Subgrantees

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls used by the
    Commission, in conjunction with the Corporation, to implement a comprehensive, non-
    duplicative evaluation and monitoring process for subgrantees;

    determine whether the Commission has an established subgrantee site visit program in place
    and make a preliminary assessment of the effectiveness of its design in achieving monitoring
    objectives;

    make a preliminary assessment of the adequacy of the Commission's procedures used to
    assess subgrantee compliance with Corporation regulations (e.g., procedures governing
    eligibility of members, service hour reporting, prohibited activities, payment of living
    allowances to members, and allowability of costs incurred and claimed under the grants by
    subgrantees, including reported match);

    make a preliminary assessment of the adequacy of the Commission's procedures for
    obtaining, reviewmg, and following up on findings included in subgrantee OMB Circular A-
    133 audit reports, where applicable;

    determine whether program goals are established, and whether results are reported and
    compared to these goals; and
                                                                             Appendix B

   make a preliminary assessment of the adequacy of the procedures in place to evaluate
   whether subgrantees are achieving their intended purpose.

In order to achieve the above objectives, we documented the procedures performed by the
Commission to evaluate and monitor individual subgrantees. In addition, we judgmentally
selected subgrantees and obtained the Commission's documentation for site visits. We reviewed
the documentation to preliminarily assess the adequacy of the procedures performed by the
Commission to assess financial and programmatic compliance, and related controls at the sites.
We also determined whether the Commission received and reviewed OMB Circular A-133 audit
reports from subgrantees.
Appendix C
                                         ervice
                                       Commission

                                            January 19,2004



                                            Mr. J. Russell George
                                            Inspector General
                                            Corporation for National and Community Service
                                            1201 New York Avenue, NW, Suite 830
                                            Washington, DC 20525

                                            Dear Mr. George:

                                            Please find attached the Oklahoma Community Service Commission's
                                            response to the draft report of the results of the pre-audit survey.
                                            Several procedural changes have occurred in our systems as a result
                                            of the survey, and we believe that our administrative capabilities have
                                            been improved.

                                            Copies of proposed solutions and revisions to existing documents are
                                            included as a separate attachment.

                                            We appreciate the opportunity to respond to this report, and we are
                                            eager to answer questions or provide additional information needed to
                                            clarify any of the content of our response.

                                            Sincerely,

                                           %&A
                                                         u
                                            Nancy C. Sharrock
                                            Executive Director

.\]in Garrett
.\'Illll,!l>b.,lti\.e   .\,>l>l,illi




505 N.E. 13th                          Oklahoma City OK 73104    (405)235-7278 FAX (405)235-7036 www.ok~~mericorps.corn
             OKLAHOMA COMMUNITY SERVICE COMMISSION
                  RESPONSE TO PRE-AUDIT SURVEY
                          January, 2004


The Oklahoma Community Service Commission offers the following explanations
or corrective actions to improve those systems and procedures identified in the
preliminary assessment of the pre-audit survey, OIG Report Number 04-08.

Fiscal Administration of Corporation for National and Community Service
grants

1.    Employee Access to Web Based Reportinq System (WBRS)

The Commission uses the Corporation's WBRS system for reporting financial
and program reports. The established set of controls by Commission staff and
subgrantees was changed as a result of the discussions surrounding this issue
during the pre-audit survey. The auditors pointed out that allowing complete user
capabilities to all four Commission staff members through the Executive Director
(ED) level of authority, the integrity of the WBRS control system was being
compromised, even though modifications are tracked by user name by WBRS.
The Commission had very large AmeriCorps*Education Award program with over
300 WBRS users. This required more than one person with Executive Director
(ED) level of authority to set up users and add program sites. Therefore, all
members of the staff were originally assigned the role of Executive Director (ED)
level of authority. This has been changed in WBRS to allow the two staff with
primary WBRS responsibility to have Executive Director (ED) access and the
other two staff to have Executive Administrator (EA) access.

Some Commission staff members were also assigned the role of Program
Director (PD) to programs in order to provide technical assistance to programs.
However, the same level of technical assistance can be provided to the programs
without approval access by assigning the Site Administrator (SA) role. This
change was made during the second week of the auditors' visit.

2.    Unallocable & Potentially Unallowable Costs Claimed to Administrative
Grant Match

The $6,118 paid for books for a service-learning project was paid from an invoice
dated May, 2000 and not approved for payment until 2001.            However, the
program utilized the materials in late 2000. The match expenditure was coded to
the 2001 grant in error. The total expenditures for the administrative grant in
2001 totaled $185,951. Match expenditures should have been reduced and
recorded on the Financial Status Report for the period 12131101 as $258,553.
However, the 2000 grant has been closed out, and final FSR has been
submitted. Match expenditures met the required levels for administrative awards,
94SCS and 01SCS.

The $534 paid for the purchase of wine during a conference was included in an
invoice totaling $24,057.02 in expenses for the conference and was included in
administrative match in Commission accounting by mistake.

These errors occurred as a result of weaknesses in the procedures for reviewing
the invoices for payment. Both were cash match paid with state funds. All cash
and in-kind expenditures must include appropriate documentation and coding
prior to processing of payment as shown in the "Accounts Payable" portion of the
Commission's Policy and Procedures Manual. Directions for In-kind expenditure
coding and match documentation have been added to that section.

Excessive Subgrantee Cash Advances

Since 2001-02, cash advances have been eliminated for all but two subgrantees
that cannot operate the AmeriCorps program without the advance funding. The
Commission's invoicing/monitoring forms have been revised to show federal cash
on hand. Subgrantees must document this amount through bank statements and
general ledgers that are analyzed during the site visit to verify the amounts.

The particular grantee has remitted $212 to HHS. This is the only instance in
which this situation has happened, and above procedures allow Commission
staff to monitor number of days in which the cash advance remains in the
su bgrantee's bank account.

Review of Subgrantee Periodic Expense Reports

Periodic Expense Reports in the WBRS system are actually utilized as the
invoice to the Commission from subgrantees. These are reviewed by the
Administrative Assistant/bookkeeper and the Executive Director as approval for
payment prior to sending to Commissioner for the first signature on payments
(checks). The Executive Director is the final signatory on all checks, but that
review was not being formally documented. As a practice, the Executive Director
now initials all Periodic Expense Reports and all invoices prior to preparation of
the checks. The Commission's Financial Policy actually dictates that the
Executive Director approves all invoices so there were no policy revisions.

Written Grievance Procedures for Rejected Applicants

The Commission's policy for notifying rejected applicants has been written notice
usually preceded by a personal telephone contact from the Executive Director.
We have not had any questions or dissatisfaction with this procedure, which was
not, documented as written policy. The Commission has implemented grievance
procedures in its Policy and Procedures Manual.
Written Procurement Procedures

The Commission's records for the maintenance, disposition and transfer of
equipment and property have been recorded through the accounting records as
equipment was capitalized as an asset in the accounting system. A list is
maintained showing date of procurement, identification of equipment and
physical location of all equipment. The list was revised as a result of this pre-
audit survey to include the grant award number from which the equipment was
purchased and the percentage of Federal participation in the cost of the
equipment and its condition each year when the form is updated.              The
Commission has implemented a procurement procedure in its Policy and
Procedures Manual.

The Commission's Monitoring Policy described strict policies for the
documentation of the site visit to the program site where the program records
and member files are housed. However, several programs have multiple
operating sites where members serve. The commission staff visits members at
various individual operating sites but has not been in the habit of documenting all
of the site visits for vai-ious reasons. After discussions with the KPMG auditors,
Commission staff began to understand the importance of documenting these site
visits and has developed a site visit tool to be used by either the Commission
staff and/or program director to document these site visits where members are
placed.

The objectives for operating site visits are:

           to ensure compliance with the legal and funding requirements of the
           Corporation for National and Community Service (CNCS) and the
           Commission; and

             to encourage continuous improvement of program quality.

The site visit procedures have been included in the Commission's Monitoring
Policy and both of these documents are attached.


Conclusion

Hopefully, the above explanations will serve to explain the corrections and
adjustments in policy and procedures that have occurred since October, 2003. If
further details regarding any of the issues of concern listed in the OIG Report
would be beneficial to gaining a better understanding of the Oklahoma
Community Service Commission's policies, procedures and operations, we would
like the opportunity to provide further explanation.
Appendix D
                                  Corvoration for         n




To:            Russell George, Inspector General


From :                                 Director of Grants Management


Cc:            Michelle Guillerrnin, Chief Financial Officer
               Rosie Mauk, Director of AmeriCorps


Date:          January 2 1,2004


Subject:       Response to OIG Draft Audit Report 04-08, Pre-Audit Survey of the
               Oklahoma Community Service Commission


FINDINGS AND RECOMMENDATIONS

We have reviewed the draft Pre-Audit Survey of the Oklahoma Community Service
Con~mission.Due to the limited timeframe for response we have not reviewed the audit
work papers or response from the Commission. We will respond to all findings and
recommendations when the audit is issued and we have reviewed the findings in detail.


QUESTIONED COSTS

The audit questioned memberships fees paid to the American Association of State
Service Commissions. We disagree with the questioned cost. The Corporation's Acting
Director of Grants Management issued a memorandum dated November 1, 1999 allowing
the use of grant funds for membership cost. The Corporation's General Counsel issued a
memorandum, December 15, 2003 stating, "Our grantees' use of funds for this purpose
neither violates the cited provisions of appropriation law, nor is it inconsistent with the
OMB cost principles, or relevant OGC guidance".

We will respond to the remaining questioned costs when the final Pre-Audit Survey is
issued.




                         1201 New York Avenue, NW * Washington, DC 20525
                               202-606-5000 * www.nationalservice.org
                        Senior Corps   t   AmeriCorps   * Learn and Serve America        The Prcsldent's Call lo Servtce
